April 30, 2021
By Electronic Filing and Overnight Delivery
Scott Harris, Clerk of the Court
Supreme Court of the United States
Office of the Clerk
1 First Street, N.E.
Washington, D.C. 20543
Re:

Ronald Hamilton v. State of Texas, No. 20-7687

Dear Mr. Harris,
A response in this death penalty case is due May 7, 2021. Respondent
respectfully requests a thirty-day extension of the present deadline, up to and
including June 6, 2021. This is Respondent’s first request for an extension in this
case. The extension request is not sought for an improper purpose, including
harassment or unnecessary delay. Rather, the undersigned requires additional time
due to the demands of supervising multiple attorneys with capital caseloads and the
undersigned’s own work in such cases. This includes recent time spent on the capital
cases of Brown v. Davis, No. 3:19-cv-02301-L-BN (N.D. Tex.), Johnson v. Davis, No.
3:19–cv–02310–E (N.D. Tex.) and Ex parte Gonzales, No. D-23,730 (358th Judicial
District Court of Ector County). Further, the records in Petitioner’s case are
voluminous (including a lengthy evidentiary hearing), and the undersigned requires
additional time to review them. The undersigned has conferred with Petitioner’s
counsel, Jonathan Landers. Esq., who stated that he was not opposed to this
requested extension. A copy of this letter will be sent to counsel. Thank you for your
consideration.
Respectfully submitted,

Stephen Hoffman
Assistant Attorney General
CC:

Jonathan Landers
917 Franklin, Suite 300
Houston, TX 77002
Jlanders.law@gmail.com

Bryan W.L. Garris
300 Main St. Suite 300
Houston, TX 77002
bryan@txdefense.net

P os t Of fic e Box 12548 , Aust in, Texa s 7 8 7 1 1 - 2 5 4 8 • ( 5 1 2 ) 4 6 3 - 2 1 0 0 • www. texa satto r neyg eneral .gov

